U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 29, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Thelma G. McCoy v. United States, No. 20-886
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 30,
2020, and placed on the docket on January 4, 2021. The government’s response is now due, after
two extensions, on April 5, 2021. We respectfully request, under Rule 30.4 of the Rules of this
Court, a further extension of time to and including May 7, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0886
MCCOY, THELMA G.
UNITED STATES OF AMERICA

KELSI BROWN CORKRAN
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, N.W.
WASHINGTON, DC 20005
202-339-8400
KCORKRAN@ORRICK.COM

